GR-50-98-002
U.S. DEPARTMENT OF JUSTICE
 

Audit Report
 
OFFICE OF COMMUNITY ORIENTED POLICING SERVICES 
GRANT TO THE CITY OF CHICAGO HEIGHTS, ILLINOIS POLICE DEPARTMENT
Award Number 95-CF-WX-1037
Audit Report Number GR-50-98-002
January 8, 1998
 

AUDIT RESULTS
 
The Office of the Inspector General, Audit Division, has completed an audit of a grants
awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented Policing
Services (COPS), to the City of Chicago Heights, Illinois (CHPD) Police Department. The
CHPD received a COPS Funding Accelerated for Smaller Towns (FAST) grant in the amount of
$150,000 and two Universal Hiring Program (UHP) Supplements, both in the amount of
$450,000, respectively, increasing the total award value to $1,050,000 and authorization
to hire a total of fourteen entry level police officers. The CHPD was also awarded $97,749
to redeploy 3.9 full-time equivalent officers under the Making Officer Redeployment
Effective (MORE) program. As of June 30, 1997, the CHPD had not requested reimbursements
under UHP Supplement 2 and the COPS MORE grant and only eight officers had been hired
under the COPS FAST and UHP Supplement 1 grant. 
Generally, the CHPD properly implemented the community policing efforts described in
its applications. However, the CHPD violated some grant conditions because the CHPD:

- Charged ineligible police officers' salaries to the COPS FAST and supplemental grant.
  Accordingly, we questioned salaries and fringe benefit costs of $27,028.
- Used an accounting system sufficient for the city's purposes but not for controlling
  COPS grant costs. The city recorded, accumulated and summarized COPS grant charges and
  local matching funds with all city expenses. The accounting system did not include a
  separate category to accumulate and summarize the costs for the COPS grants.
-      Omitted officers' names from the Officer Progress
  Report.
- Did not submit all of the required Financial Status Reports.

 
#####